   June 21, 2006




Acquisition
Contracting and Funding for the
C-130J Aircraft Program
(D-2006-093)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AFAA                  Air Force Audit Agency
FAR                   Federal Acquisition Regulation
IG                    Inspector General
MYP                   Multiyear Procurement
PBD                   Program Budget Decision
SPO                   System Program Office
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                          June 2 1,2006

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTOR GENERAL

SUBJECT: Report on Contracting and Funding for the C-130J Aircraft Program (Report
         NO. D-2006-093)


        We are providing this report for your information and use. The Military Deputy,
Office of the Assistant Secretary of the Air Force (Acquisition) provided comments. We
considered management comments on the draft of this report when preparing the final
report. The complete text of the comments is in the Management Comments section of
the report.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Rudolf Noordhuizen at (703) 604-8959 (DSN 664-8959) or Lisa E. Novis at
(703) 604-8967 (DSN 664-8967). See Appendix C for the report distribution. The team
members are listed on the inside back cover.




                                          Richard B. Jolliffe
                                    Assistant Inspector General
                                Acquisition and Contract Management
               Department of Defense Office of Inspector General
Report No. D2006-093                                                       June 21, 2006
   (Project No. D2005-D000AB-0214.000)

                             Contracting and Funding
                         for the C-130J Aircraft Program

                                 Executive Summary

Who Should Read This Report and Why? Congressional, civilian, and military
personnel involved in managing acquisition programs should read this report to obtain
information about commercial item acquisition and contract management. This report
discusses problems associated with commercial acquisition, contractor performance,
contract modifications, and contract termination of the C-130J aircraft.

Background. The C-130J performs the intratheater portion of the airlift mission and is a
platform for dropping troops and equipment into hostile areas. The Air Mobility
Command, Theater Commands, Air National Guard, Air Force Reserve, Air Force
Special Operations Command, Marine Corps, and Coast Guard use the C-130 aircraft
fleet in peace and war missions. The C-130J aircraft is a medium-range, tactical aircraft
and is the newest upgrade to the C-130 fleet.

The DoD Program Budget Decision (PBD) 753, December 23, 2004, called for the
termination of the procurement of C-130J aircraft for the Air Force and the accelerated
procurement of the remainder of the KC-130J aircraft for the Marine Corps in FY 2006.

On May 10, 2005, the Secretary of Defense determined that it was in the best interest of
DoD to complete the multiyear contract based on the estimated costs to terminate the
contract.

We performed this audit in response to four allegations made to the Defense Hotline
concerning the C-130J Program. The first allegation was that the C-130J termination cost
estimate was inaccurate; further, if the estimate was valid, there was a potential for an
Antideficiency Act violation. The complainant also alleged that the Government misused
funds to support the C-130J commercial venture, the Government funds spent on contract
modification P00020 did not relate to new Air Force work requirements, and that the
contracting officer did not appropriately evaluate the contractor’s performance against
contract default provisions.

Results. We substantiated the allegation that the C-130J termination cost estimate was
unsupported, and that had the estimate been valid, there was a potential for an
Antideficiency Act violation. Specifically, the Air Force acquisition personnel could not
support the cost estimate to terminate the C-130J aircraft multiyear procurement contract.
As a result, the Secretary of Defense did not have sufficient termination cost information
to determine the cost-effectiveness of continuing or terminating the C-130J MYP
contract. In addition, the FY 2006 President’s Budget did not include sufficient funds to
terminate the Air Force C-130J aircraft procurement and accelerate the Marine Corps
KC-130J aircraft procurement if the unsupported cost estimate was valid. We did not
substantiate the allegations that the Air Force C-130J System Program Office misused
funds to support the C-130J commercial venture and that the funds for modification
P00020 were not used for new work. We substantiated the allegation that the C-130J
System Program Office contracting officer did not appropriately evaluate the contractor’s
performance against contract default provisions. The last three allegations discussed
relate to a finding in a prior report and are addressed in Appendix B.

Management Comments and Audit Response. Although no comments were required,
the Military Deputy, Office of the Assistant Secretary of the Air Force (Acquisition)
stated that the PBD 753 implementation cost estimate was based on information that was
available at the time the estimate was submitted. Because the C-130J aircraft were
procured under Federal Acquisition Regulation Part 12, the contractor was not required to
provide certified cost data. The Air Force also stated that there was no potential for an
Antideficiency Act violation because the Air Force would have been allowed to fund the
program within its Total Obligation Authority. The Air Force acknowledged that the
allegation was partially accurate. The Air Force stated that they did not terminate the
C-130J contract for default because they were actively working with the contractor to
address shortfalls in meeting the commercial specification that was on contract.

We agree that the Air Force PBD 753 implementation cost estimate was based on the
information that was available at the time the estimate was submitted. However, as we
stated in the report, because the C-130J aircraft were procured under Federal Acquisition
Regulation Part 12, the Air Force did not have cost and pricing data needed to perform a
valid cost estimate. If PBD 753 had been implemented at the termination cost amounts
the Air Force estimated, the FY 2006 President’s Budget would not have had sufficient
funds to pay for the termination. Though we agree that the Air Force would have been
allowed to fund the implementation of PBD 753 within its Total Obligation Authority to
avoid an Antideficiency Act violation, the Air Force should not have entered into a
contract that could cost almost as much to cancel as to complete. Also the Government
should require the contractor to deliver an aircraft compliant with the contract model
specification, yet ten years after the first award in 1995, the contractor was still delivering
non-compliant aircraft. The Air Force’s acceptance of the deficient aircraft for such a
long period limited its options in enforcement of the contract. This was compounded
because the Air Force chose an inappropriate acquisition strategy and used ambiguous
and vague contracting language.

A discussion of the management comments is in the Finding section and Appendix B of
the report, and the complete text is in the Management Comments section.




                                              ii
Table of Contents
Executive Summary                                          i

Background                                                 1

Objectives                                                 2

Managers’ Internal Control Program                         3

Finding
     Termination Costs for the C-130J Program              4

Appendixes
     A. Scope and Methodology                             13
         Prior Coverage                                   13
     B. Summary of Allegations                            14
     C. Report Distribution                               17

Management Comment
     Office of the Assistant Secretary of the Air Force   19
        (Acquisition)
Background
           We performed this audit in response to four allegations made to the Defense
           Hotline concerning contracting and funding for the C-130J Program.

           Congressional Authorization and Appropriation. Congress authorized and
           appropriated about $7.5 billion for the acquisition of the C-130J aircraft for
           FYs 1994 through 2006. About $2.9 billion of the $7.5 billion was in the form of
           congressional increases to the Services’ budget requests. In 2003, DoD submitted
           a request for approval of a multiyear procurement (MYP) contract for the C-130J
           aircraft. The 2003 Authorization Conference Report 107-772 authorized MYP
           authority for the C-130J aircraft program.

           C-130J Aircraft. The C-130J performs the intratheater portion of the airlift
           mission and is a platform for dropping troops and equipment into hostile areas.
           Air Mobility Command, Theater Commands, Air National Guard, Air Force
           Reserve, Air Force Special Operations Command, Marine Corps, and Coast
           Guard use the C-130 aircraft fleet in peace and war missions. The C-130J aircraft
           is a medium-range, tactical aircraft and is the newest upgrade to the C-130 fleet.
           Specialized versions of the aircraft include the C-130J Stretch in which the cargo
           floor length of the aircraft is increased from 40 to 55 feet, the WC-130J that
           performs weather reconnaissance missions, the EC-130J that performs electronic
           warfare missions, the KC-130J that performs air-refueling missions, and the
           HC-130J that performs search and rescue missions. In this report, all aircraft will
           be referred to as the C-130J unless the discussion relates to a specific aircraft
           version.

           C-130J Program Information. The Under Secretary of Defense for Acquisition,
           Technology, and Logistics designated the C-130J Program as an Acquisition
           Category IC program and assigned the Air Force acquisition executive as the
           milestone decision authority.* The Air Force C-130J System Program Office
           (SPO) contracting officer determined that the C-130J aircraft was a commercial
           item that would meet the Government’s needs with minor modifications.
           Lockheed Martin developed and produced the C-130J aircraft by using a
           commercial aircraft model performance specification. Lockheed Martin initiated
           the C-130J aircraft and managed the program development, developmental
           testing, and production process. Because the Air Force C-130J SPO contracting
           officer determined that the C-130J aircraft was a commercial item, the Air Force
           did not apply the normal milestone decision process to this program.

           Based on the congressional authority to purchase C-130J aircraft, the Air Force
           decided to buy the aircraft in the quantities authorized. Because of the contracting
           officer’s decision to designate the aircraft as a commercial item, Federal
           Acquisition Regulation (FAR) Part 15, “Contracting by Negotiation,” which
           allows Government access to contractor cost and pricing data as well as other
           Government oversight, did not have to be applied to the C-130J procurement. On

*
    Acquisition Category IC programs are Major Defense Acquisition Programs with expenditures for
    research, development, test, and evaluation of more than $365 million or procurement of more than
    $2.190 billion. The milestone decision authority is the Component head, or Service acquisition executive.



                                                       1
    March 14, 2003, the Air Force C-130J SPO awarded, as authorized, an MYP
    contract to Lockheed Martin. The contract was for the procurement of 60 aircraft:
    40 C-130J aircraft for the Air Force and 20 KC-130J aircraft for the Marine
    Corps. Since program inception, the Air Force C-130J SPO has contracted for
    117 C-130J aircraft for the Air Force, Marine Corps, and Coast Guard at a cost of
    $7.45 billion. As of December 31, 2005, the Air Force C-130J SPO had accepted
    73 C-130J aircraft.

    Program Budget Decision 753. The DoD Program Budget Decision (PBD) 753,
    December 23, 2004, proposed terminating the procurement of C-130J aircraft for
    the Air Force and accelerated procurement of the KC-130J aircraft for the Marine
    Corps in FY 2006.

    Congressional Letter. On January 10, 2005, 24 members of the U.S. Senate
    wrote a letter to President George Bush stating that the DoD proposed termination
    of the C-130J MYP contract was ill-advised and untimely given the operational
    shortfalls facing our military and the threats facing our Nation.

    Conversion to Noncommercial Acquisition. During an April 13, 2005, meeting,
    the Chairman of the Senate Subcommittee on AirLand, Committee on Armed
    Services, the Acting Secretary, and Chief of Staff of the Air Force agreed that the
    aircraft procurement should be converted from a commercial acquisition to a
    negotiated procurement under FAR Part 15.

    Secretary of Defense Letter. On May 10, 2005, the Secretary of Defense wrote
    a letter to the Honorable Ted Stevens, Chairman for the Defense Subcommittee,
    Committee on Appropriations in which he stated that it was in the best interest of
    DoD to complete the MYP contract based on the estimated costs to terminate the
    C-130J MYP contract.

Objectives
    The audit objective was to determine whether the Defense Hotline allegations on
    the C-130J program had merit. Specifically, the audit evaluated:

       •   the costs to terminate the C-130J contract for convenience and potential
           Antideficiency Act violations;

       •   the potential misuse of Government money to support the C-130J
           commercial venture;

       •   whether money spent for contract modification P00020 appropriately
           related to new work requirements of the Air Force; and

       •   whether the contracting officer appropriately evaluated the contractor’s
           performance against contract default provisions.

    The report finding discusses the costs to terminate the C-130J contract for
    convenience and potential Antideficiency Act violations. Appendix B addresses
    the potential misuse of Government money to support the C-130J commercial


                                         2
    venture; whether money spent for contract modification P00020 appropriately
    related to new work requirements of the Air Force; and whether the contracting
    officer appropriately evaluated the contractor’s performance against contract
    default provisions. See Appendix A for a complete discussion of the audit scope
    and methodology as well as prior coverage.

Managers’ Internal Control Program
    We did not review the managers’ internal control program because the audit
    focused on whether the allegations on the C-130J Program had merit.




                                        3
           Termination Costs for the C-130J
           Program
           The Air Force acquisition personnel provided the Secretary of Defense
           with an unsupported cost estimate to use in deciding whether to terminate
           the C-130J aircraft MYP contract. This occurred because the Air Force
           included ambiguous language in the contract and did not have cost and
           pricing data needed to develop an accurate cost estimate. As a result, the
           Secretary of Defense did not have sufficient termination cost information
           to determine the cost-effectiveness of continuing or terminating the
           C-130J MYP contract. In addition, the FY 2006 President’s Budget did
           not include sufficient funds to terminate the Air Force C-130J aircraft
           procurement and accelerate the Marine Corps KC-130J aircraft
           procurement if the unsupported cost estimate was valid.

C-130J MYP Contract
    C-130J/KC-130J MYP Contract. On March 14, 2003, the Air Force C-130J
    SPO contracting officer awarded an MYP contract to Lockheed Martin. The
    contract was for the procurement of 60 aircraft: 40 C-130J aircraft for the Air
    Force and 20 KC-130J aircraft for the Marine Corps. Table 1 shows the number
    of aircraft by Service and fiscal year.

              Table 1. MYP Aircraft by Service and Fiscal Year


                            Air Force           Marine Corps           Total
                             C-130J              KC-130J              Aircraft

    FY 2003                      0                    4                  4
    FY 2004                      4                    0                  4
    FY 2005                     11                    4                 15
    FY 2006                      9                    4                 13
    FY 2007                      9                    4                 13
    FY 2008                      7                    4                 11
        Total                   40                   20                 60

    The C-130J MYP contract included 60 aircraft at a price of $4.05 billion. Table 2
    shows the funding by Service and fiscal year.




                                        4
           Table 2. MYP Aircraft Funding by Service and Fiscal Year
                                   (in Millions)


                             Air Force                    Marine Corps              Total
                              C-130J                       KC-130J                 Aircraft
     FY 2003                   $70.0                        $279.6                  $349.6
     FY 2004                   369.1                           40.0                  409.1
     FY 2005                   733.9                          277.6                1,011.5
     FY 2006                   567.7                          277.6                  845.3
     FY 2007                   567.7                          277.6                  845.3
     FY 2008                   351.6                          237.6                  589.2
           Total            $2,660.0                       $1,390.0               $4,050.0

     Program Budget Decision 753. DoD PBD 753, December 23, 2004, terminated
     the procurement of C-130J aircraft after FY 2005 for the Air Force and
     accelerated procurement of the remainder of the KC-130J aircraft for the Marine
     Corps in FY 2006. PBD 753 would have reduced the MYP contract by 25 aircraft
     from 60 to 35 aircraft. Table 3 shows the number of aircraft by Service and fiscal
     year under PBD 753.

              Table 3. MYP Aircraft by Service and Fiscal Year Under PBD 753
                         Air Force    Marine Corps          Total
                          C-130J        KC-130J            Aircraft

     FY 2003                     0                    4                      4
     FY 2004                     4                    0                      4
     FY 2005                    11                    4                     15
     FY 2006                     0                   12                     12
     FY 2007                     0                    0                      0
     FY 2008                     0                    0                      0
           Total                15                   20                     35

Criteria

     Federal Acquisition Regulation. FAR clause 52.217-2, “Cancellation Under
     Multi-Year Contracts,” October 1997, defines cancellation as

            the Government canceling its requirements for all supplies or services
            in program years subsequent to that in which notice of cancellation is
            provided. Cancellation shall occur by the date or within the time period
            specified in the Schedule, unless a later date is agreed to, if the
            contracting officer notifies the contractor that funds are not available
            for contract performance for any subsequent program year. If
            cancellation under this clause occurs, the contractor will be paid a
            cancellation charge not over the cancellation ceiling specified in the
            schedule as applicable at the time of cancellation. The cancellation



                                               5
           charge will cover only costs incurred by the contractor and/or
           subcontractor; reasonably necessary for performance of the contract;
           and that would have been equitably amortized over the entire multi-
           year contract period but, because of the cancellation, are not so
           amortized; and a reasonable profit or fee on the costs.

    United States Code. Section 1341, title 31, United States Code, “Limitations on
    Expending and Obligating Amounts,” forbids obligating, expending, or
    authorizing the use of funds exceeding the amount available in an appropriation or
    fund. Section 1517, title 31, United States Code, “Prohibited Obligations and
    Expenditures,” forbids the overobligation and overexpenditure of appropriations.

Air Force Estimated Termination Costs
    PBD 753 proposed terminating the procurement of C-130J aircraft after FY 2005
    for the Air Force and accelerated procurement of the remainder of the MYP
    KC-130J aircraft for the Marine Corps in FY 2006. Assistant Secretary of the Air
    Force, Acquisition personnel, the Air Force C-130J SPO, the Air Force F/A-22
    SPO, and Marine Corps personnel developed the Air Force estimate to implement
    PBD 753. The Air Force estimated the cost to implement PBD 753 at
    $1.78 billion, as shown in Table 4.

         Table 4. Air Force Estimated Costs to Implement PBD 753
           Cost Component                        Cost (in billions)
    Cancellation Ceiling                                $0.44
    Equitable Adjustment                                 0.72
    KC-130J Procurement Acceleration                     0.42
    F/A-22 Overhead Cost Increase                        0.20
            Total                                       $1.78
    Cancellation Ceiling. The C-130J MYP contract included a cancellation ceiling
    clause in case the Government terminated the contract for the convenience of the
    Government. For purposes of determining the cancellation cost, the contract
    assumes full funding by November 15 of each fiscal year. The contract stated that
    if the contract cancellation occurred after November 15, the Government and the
    contractor would negotiate an equitable adjustment to the cancellation values.
    The equitable adjustment was to be limited to a reasonable amount necessary to
    account for the additional contract performance required after November 15 and
    until the actual date of cancellation. No adjustment was to be made to the
    cancellation ceiling unless the actual date of cancellation occurred after
    November 15 of the affected fiscal year. The C-130J MYP contract established
    the contract cancellation ceilings as shown in Table 5.




                                            6
       Table 5. MYP Cancellation Ceiling Amounts by Fiscal Year

Fiscal Year              Cancellation Ceiling Amount                   Assumed Date of
                                                                         Cancellation

FY 2003                         $110,000,000               November 16, 2003
FY 2004                         $474,200,000               November 16, 2004
FY 2005                         $439,700,000               November 16, 2005
FY 2006                         $383,300,000               November 16, 2006
FY 2007                         $347,300,000               November 16, 2007
FY 2008                                    $0                       -
The Air Force estimate to terminate the C-130J contract used the FY 2005
cancellation ceiling of $439,700,000 (rounded up to $440 million) that was
provided in the contract. The Air Force stated that the cancellation ceiling
covered contractor commitments to subcontractors and long-lead items.
However, the Air Force C-130J SPO contracting officer could not provide any
documentation to show how the ceiling cost was derived and what items were
included in the ceiling amount. Under the terms of the cancellation clause, the
C-130J SPO was not obligated to pay the full cancellation ceiling amount. The
cancellation clause in the contract allowed the contractor to receive only an
equitable adjustment or otherwise allowable cost resulting from the termination.
In estimating the amount to pay the contractor, the Air Force should have
considered that they had already paid advanced procurement for long-lead items,
and PBD 753 did not cancel the Marine Corps aircraft procurements. The C-130J
SPO contracting officer should only make payments to the contractor that are
allowable by the contract cancellation clause and that the contractor can support.
Assistant Secretary of the Air Force, Acquisition personnel stated by definition, a
contract cancellation ceiling should represent the Government’s maximum
liability.

Equitable Adjustment. Air Force C-130J SPO personnel stated that the C-130J
MYP contract included significant contingent liabilities beyond the contract
cancellation ceiling. Air Force C-130J SPO personnel stated that in addition to
the contract ceiling clause, an equitable adjustment clause in the contract states:
       If the contract is terminated for the Convenience of the Government
       and the total quantity of aircraft procured is reduced to less than 60, an
       equitable adjustment shall be made to the unit price reflected in the
       schedule. All payments made, or to be made, will be adjusted to reflect
       the new unit price.

However, the contract does not provide a methodology for determining the
equitable adjustment, new unit prices, or a new contract price for procuring fewer
than 60 aircraft. The equitable adjustment clause was separate from the
cancellation provisions. The contract did not state whether these costs were
included as part of the cancellation ceiling. Assistant Secretary of Air Force,
Acquisition personnel stated that because the equitable adjustment clause was not
contained in the cancellation provisions, but rather in the multiyear funding
provision, it would not be included in the contract cancellation ceiling. In
addition, the equitable adjustment wording did not provide any pricing



                                           7
methodology, so the Air Force acquisition personnel stated that they believed it
was reasonable to assume that these words represented an open-ended liability
risk to the Government.

The Air Force estimated that the additional price for the 23 delivered C/KC-130J
aircraft would be $32 million per aircraft ($720 million total). However, the Air
Force C-130J SPO personnel did not have supporting documentation or a
methodology for how they arrived at the additional amount. Because the C-130J
MYP contract was awarded as a commercial contract, the Air Force C-130J SPO
personnel had no cost or pricing data to determine increased aircraft costs related
to procuring 25 fewer C-130J aircraft. In addition, the cancellation clause stated
that if the Government cancels the contract, the contractor will be paid a
cancellation charge no more than the cancellation ceiling specified in the
cancellation ceiling clause.

The ceiling should be the limit for reimbursement of allowable cost, but costs
should only be allowable to the extent those costs could be supported. Therefore,
a supportable equitable adjustment to increase C-130J aircraft costs should be
allowed up to the cancellation ceiling amount.

KC-130J Procurement Acceleration. PBD 753 also accelerated procurement of
the remainder of the KC-130J aircraft for the Marine Corps in FY 2006. Air
Force C-130J SPO personnel stated the Government would have additional costs
if the KC-130J aircraft procurement was accelerated to buy 12 KC-130J aircraft
instead of 4 KC-130J aircraft and 9 C-130J aircraft in FY 2006. Air Force C-130J
SPO personnel stated that the cost per aircraft would increase due to a break in the
production line. In addition, Air Force C-130J SPO personnel stated that long-
lead items were purchased for four KC-130J aircraft and nine C-130J aircraft, not
for the additional eight KC-130J aircraft to be procured under PBD 753. Air
Force C-130J SPO personnel stated that there would be an 8- to 11-month break
in the C-130J production line and estimated that the procurement acceleration
would increase the price per aircraft by $35 million ($420 million total) to procure
12 KC-130J aircraft in FY 2006. However, the Air Force C-130J SPO personnel
did not have supporting documentation or a methodology to show how they
arrived at the additional amount. The Marine Corps acceleration did not change
the number of the KC-130J aircraft to be acquired as part of the MYP contract; it
only changed the timing of the purchase. In addition, the Government was buying
only one less aircraft overall in FY 2006; rather than 4 KC-130J aircraft and
9 C-130J aircraft, the Government was buying 12 KC-130J aircraft. Air Force
C-130J SPO personnel did not provide any analysis of what C-130J long-lead
items might be usable for the KC-130J aircraft. Only a supportable equitable
adjustment should be allowed within the ceiling amount.

F/A-22 Overhead Cost Increase. Lockheed Martin manufactures both the
C-130J aircraft and the F/A-22 aircraft at its production facility in Marietta,
Georgia. Assistant Secretary of the Air Force, Acquisition personnel stated if the
C-130J aircraft was no longer produced at the facility in Marietta, Georgia, the
cost of the F/A-22 program would grow, primarily because of increased overhead
rates. The briefing to the Secretary of Defense showed the F/A-22 overhead
increase as $200 million. Further refinement by the F/A-22 Program Office
brought the estimated cost down to $175 million. The F/A-22 Program Office


                                     8
    and the Air Force Cost Analysis Agency performed a detailed, documented
    analysis of the impact of PBD 753 on the F/A-22 Program. The analysis showed
    an increase to the F/A-22 program of $175 million from FY 2006 through
    FY 2008 if the Air Force terminated the procurement of C-130J aircraft after
    FY 2005 and accelerated procurement of the remainder of the KC-130J aircraft
    for the Marine Corps in FY 2006. The Institute for Defense Analysis validated
    the F/A-22 cost-estimation process. The F/A-22 Program Office was able to
    perform a detailed supported cost estimate because, unlike the C-130J Program,
    the F/A-22 Program was procured under a FAR Part 15 negotiated contract;
    therefore, the program office had validated cost and pricing data necessary to
    accurately estimate the effect on the F/A-22 overhead rates.

    Total Estimated Cost to Terminate. The Air Force estimated it would cost
    $1.78 billion to terminate the procurement of the C-130J and accelerate the
    procurement of the KC-130J aircraft. However, $1.1 billion was not supported
    and another $440 million was supported only to the extent that it represented the
    ceiling amount in the contract. In addition, PBD 753 funding of the C-130J
    termination was not adequate to cover the Air Force estimate to terminate the
    C-130J MYP contract if the unsupported cost estimate was valid.

Air Force Budgeted Termination Costs
    If PBD 753 had been implemented at the termination cost amounts the Air Force
    estimated, the FY 2006 President’s Budget would not have had sufficient funds to
    pay for the termination. Based on figures provided by the Assistant Secretary of
    Air Force, Acquisition personnel, DoD budgeted $650 million in PBD 753 for the
    termination of the Air Force procurement of C-130J aircraft and the accelerated
    procurement of the remainder of the KC-130J aircraft for the Marine Corps in
    FY 2006. The initial cancellation cost amounts budgeted for in the FY 2006
    President’s Budget that Assistant Secretary of Air Force, Acquisition officials
    provided were based on lower estimates. The Air Force estimated the cost to
    implement PBD 753 at $1.78 billion. Because only $650 million was budgeted to
    implement PBD 753, the Air Force would have had a budget shortfall of $1.13
    billion and the potential for an Antideficiency Act violation if PBD 753 had been
    implemented. However, Assistant Secretary of Air Force, Acquisition personnel
    stated that if the C-130J MYP contract termination had been implemented,
    funding would have been included in the FY 2007 budget request to cover the full
    termination cost, and avoid an Antideficiency Act violation.

Air Force MYP Contract
    Air Force C-130J SPO contracting officer clouded the terms and conditions of the
    MYP contract by modifying standard FAR clause 52.217-2, “Cancellation Under
    Multi-Year Contracts.”

    FAR Clause 52.217-2. The Air Force C-130J SPO contracting officer modified
    FAR clause 52.217-2, “Cancellation Under Multi-Year Contracts,” October 1997,
    and did not include an explanation of what the cancellation ceiling amount would
    cover. Instead, the C-130J MYP contract stated, “in the event of contract


                                         9
    cancellation, as defined in paragraph 23.a of this clause, the contractor would
    submit a commercial cancellation proposal to the Government.” In addition, the
    contracting officer deleted FAR clause 52.217-2 paragraphs that explained what
    the contractor’s claim may include, what the claim would not include, and how to
    deal with option clauses if included within the contract. The contracting officer
    also did not make clear how the equitable adjustment clause for termination
    would interact with the cancellation ceiling clause. The contract did not discuss
    accelerated deliveries. Although the Air Force C-130J SPO contracting officer
    left portions of the contract unclear and clouded the meaning of the FAR clause,
    the clause still required the contractor to provide sufficient support of incurred
    costs to substantiate payments to the contractor and that amounts would only be
    allowed under the ceiling to the extent the costs were supported.

C-130J MYP Contract Cost and Pricing Data
    The Air Force C-130J SPO personnel did not have C-130J cost and pricing data
    necessary to determine termination costs for the C-130J MYP contract. Because
    the Air Force C-130J SPO contracting officer determined that the C-130J aircraft
    was a commercial item, the SPO adopted a commercial acquisition strategy.
    Therefore, the Air Force C-130J SPO personnel did not have cost or pricing data
    for the C-130J aircraft procurement to develop an estimate of the additional
    contractor costs related to the C-130J procurement reduction and acceleration of
    the KC-130J procurement.

Decision Not to Terminate the C-130J MYP Contract
    The price to complete the aircraft deliveries under the C-130J MYP contract for
    FY 2006 through FY 2008 is $2.3 billion. The Air Force estimate to implement
    PBD 753 was $1.78 billion. Accordingly, the difference between implementing
    PBD 753 and completing the C-130J MYP contract was $520 million.

    On May 10, 2005, the Secretary of Defense wrote a letter to the Defense
    Subcommittee, Committee on Appropriations in which he stated it was in the best
    interest of DoD to complete the multiyear contract based on the additional costs
    estimated to terminate the C-130J MYP contract.

Conclusion
    The Air Force estimated it would cost $1.78 billion to implement PBD 753 to
    terminate the procurement of the C-130J and accelerate the procurement of the
    KC-130J aircraft. However, the Air Force did not have support for $1.1 billion of
    its cost estimate and only supported an additional $440 million to the extent that it
    was the ceiling amount included in the contract. The Air Force C-130J MYP
    cancellation ceiling amount was taken from the MYP contract. By definition, a
    contract cancellation ceiling represents the Government’s maximum liability.
    However, conflicting statements and ambiguities in the contract limited the Air
    Force’s ability to assess the Government’s liability and resulted in a significantly
    higher estimate to implement PBD 753. PBD 753 was only a partial program


                                         10
    cancellation; it canceled only the Air Force aircraft procurement, not the Marine
    Corps aircraft procurement. Instead of attempting to determine incurred costs that
    would be allowed up to the ceiling amount, the Air Force C-130J SPO personnel
    used the total ceiling price in its cost estimate. In addition, the Air Force C-130J
    SPO contracting officer could not provide documentation to show how the ceiling
    cost was derived and what items would be allowable under the ceiling. The
    language in the MYP contract also allowed for an equitable adjustment if less
    than 60 aircraft are purchased. The contract did not include the equitable
    adjustment in the cancellation provision; therefore, it is not clear whether the
    equitable adjustment should have been limited to the cancellation ceiling. In
    addition, the equitable adjustment clause should have included a pricing
    methodology to allow the Government to know its liability. Because the C-130J
    MYP contract was designated as commercial, the Air Force C-130J SPO
    personnel had no cost or pricing data needed to perform a valid cost estimate for
    the C-130J procurement reduction or the KC-130J procurement acceleration. The
    contract did not discuss equitable adjustments for accelerated deliveries. The
    increase in overhead to the F/A-22 program caused by the cancellation is the only
    cost supported with a detailed methodology and documentation. As a result, the
    cost estimate used by the Secretary of Defense to reinstate the C-130J Program
    was incomplete and did not provide reliable information for making an informed
    decision. Had the Air Force’s cost estimate been closer to the original amount
    included in the PBD, the decision may have been different.

    We are making no recommendations in this report because the problems within
    the C-130J Program were the result of the Air Force C-130J SPO contracting
    officer adopting a commercial acquisition strategy and using ambiguous contract
    language. Our previous report, DoD Inspector General Report No. D-2004-102,
    “Contracting for and the Performance of the C-130J Aircraft,” July 23, 2004,
    addressed this issue. In addition, during an April 13, 2005, meeting, the
    Chairman of the Senate Subcommittee on AirLand, Committee on Armed
    Services, the Acting Secretary, and Chief of Staff of the Air Force agreed that the
    aircraft procurement should be converted from a commercial acquisition to a
    negotiated procurement under FAR Part 15. The Air Force is in the process of
    making that conversion. An undefinitized contract action was issued on February
    10, 2006, to convert the FY 2006 through FY 2008 portion of the C-130J MYP
    contract to a FAR Part 15 negotiated contract.

Management Comments and Audit Response
    Although not required to comment, the Military Deputy, Office of the Assistant
    Secretary of the Air Force (Acquisition) provided comments on the report. For a
    full text of the comments, see the Management Comments section of the report.

    Management Comments. The Air Force stated that the PBD 753
    implementation cost estimate was based on information that was available at the
    time the estimate was submitted. The Air Force, along with the Office of the
    Secretary of Defense (Program Analysis and Evaluation), developed a rough
    order of magnitude cost estimate based on the Government’s interpretation of the
    contract terms and conditions, along with potential operational and programmatic
    impacts. There were no discussions with the C-130J contractor. The Air Force


                                        11
considered termination costs, cancellation costs, equitable adjustments required
by express contract terms, C-130J/KC-130J operational impacts, and facility
impacts based on overhead rates. Because C-130J aircraft were procured under
FAR Part 12, the contractor was not required to provide certified cost data. The
Air Force also stated that there was no potential for an Antideficiency Act
violation because the Air Force would have been allowed to fund the program
within its Total Obligation Authority.

Audit Response. We agree that the Air Force PBD 753 implementation cost
estimate was based on the information that was available at the time the estimate
was submitted. However, as we stated in the report, because the C-130J aircraft
were procured under FAR Part 12, the Air Force did not have cost and pricing
data needed to perform a valid cost estimate. By definition, a contract
cancellation ceiling should represent the Government’s maximum liability.
However, conflicting statements and ambiguities in the contract limited the Air
Force’s ability to assess the Government’s liability and resulted in a significantly
higher estimate to implement PBD 753. As a result, the cost estimate used by the
Secretary of Defense to reinstate the C-130J Program was incomplete and did not
provide reliable information for making an informed decision. The Air Force
estimated the cost to implement PBD 753 at $1.78 billion but only $650 million
was budgeted, leaving the Air Force with a budget shortfall of $1.13 billion and
the potential for an Antideficiency Act violation. Though we agree that the Air
Force would have been allowed to fund the implementation of PBD 753 within its
Total Obligation Authority to avoid an Antideficiency Act violation, the Air Force
should not have entered into a contract that could cost almost as much to cancel as
to complete.




                                    12
Appendix A. Scope and Methodology
    We performed the audit to examine four allegations made to the Defense Hotline
    regarding contracting and funding for the C-130J Aircraft Program.

    We reviewed the operational requirement document and contract files for the
    C-130J Program dated from September 1995 through March 2006. We reviewed
    DoD policies for commercial acquisitions, contract terminations, and contractor
    performance. We discussed the allegations with the complainant. We also
    reviewed the Program Budget Decision and the documentation supporting the cost
    analysis. We interviewed officials in DoD, the Air Force, the Navy, the Marine
    Corps, and the Defense Contract Management Agency.

    We performed this audit from June 2005 through March 2006 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD weapons acquisition process and contract
    management and oversight high-risk areas.

Prior Coverage
    During the last 5 years, the DoD Inspector General (IG) and the Air Force Audit
    Agency (AFAA) have issued two reports discussing the C-130J Program.
    Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.

DoD IG
    DoD IG Report No. D-2004-102, “Contracting for and the Performance of the
    C-130J Aircraft,” July 23, 2004

AFAA
    AFAA Report No. F2005-0008-FC3000, “Acquisition Management of the C-130J
    Program,” September 28, 2005




                                        13
Appendix B. Summary of Allegations
   We substantiated the allegation that the Air Force provided an unsupported cost
   estimate to terminate the C-130J aircraft MYP contract, and that if the Air Force
   termination cost estimate was valid there was a potential for an Antideficiency
   Act violation. This allegation was addressed in the Finding section of this report.

   The other three allegations and our results are addressed below.

   Allegation. The Government misused funds to support the C-130J commercial
   venture.

   Audit Result. We did not substantiate that the Air Force misused Government
   funds to support a commercial venture. However, the Air Force’s flawed
   commercial item determination and mismanagement caused the Air Force to
   contract for the C-130J aircraft even though the contractor did not have the ability
   to make a specification-compliant aircraft. Furthermore, the Air Force continued
   to accept C-130J aircraft for delivery even though the aircraft had deficiencies and
   did not meet the commercial model specification. In addition, the Air Force
   issued additional contracts for more aircraft at increasing prices without taking
   decisive action to obtain a compliant aircraft.

   Allegation. Government funds spent on contract modification P00020 did not
   relate to new Air Force work requirements.

   Audit Result. We did not have enough information to substantiate the allegation
   that modification P00020 was used to fund work that was not for new Air Force
   requirements. The Air Force accepted a vague commercial model specification
   and awarded a commercial contract. The contract model specification was
   ambiguous, which made it difficult to determine which requirements were part of
   the contract model specification and which requirements were outside of the
   specification but needed for operational missions. The contract model
   specification was so difficult to interpret that the Air Force and the contractor
   formed a Blue Ribbon Panel to determine which party was responsible for
   reported deficiencies and for funding the corrections.

   Block Upgrade 5.4 is a major upgrade to the C-130J Program and is made up of
   three separate phases. Contract modification P00020 was the third phase. Block
   5.4 is supposed to bring the aircraft up to the new operational requirements. The
   cost of Block Upgrade 5.4 was about $58 million.

   Because of the ambiguous C-130J contract model specification and the
   commingling of new requirements and corrections to bring the aircraft into
   compliance with the contract model specification, not enough information was
   available to determine if Government funds were only used for the new work
   requirements in Block Upgrade 5.4.

   Allegation. The contracting officer did not appropriately evaluate the
   contractor’s performance against contract default provisions.



                                       14
Audit Result. We substantiated that the contracting officer did not appropriately
evaluate the contractor’s performance against contractor default provisions. The
Air Force did not take decisive actions to improve contractor performance or
pursue contractor default provisions primarily because the Air Force’s own
actions contributed significantly to the poor performance and the inability to
obtain a mission-capable aircraft for approximately 10 years.

The Air Force issued three consecutive contracts for the C-130J aircraft even
though Lockheed Martin had not delivered a specification-compliant aircraft. The
Air Force could not easily terminate the C-130J MYP contract for cause when the
Air Force continued to contract for additional aircraft and conditionally accept
deficient aircraft.

The C-130J Program Office also issued contractor performance assessment
reports that provided an unrealistic and inflated contract rating for the C-130J
Program. Contractor performance assessment reports are prepared by the
Government to rate contract performance.

The contracting officer stated that the Air Force did not consider termination for
default as a viable option for the C-130J contract. The Air Force stated that
because Lockheed Martin is the sole source for the C-130J aircraft, terminating
the C-130J contracts with Lockheed Martin would have been useless. The
Government had no other entity that could supply the C-130J aircraft. In a non-
sole-source environment where the Government had another avenue to procure
C-130J aircraft and related support, the Air Force could have terminated the
contract for cause if the Contractor defaulted on the contract and procured the
aircraft from another source. Additionally, the Air Force stated that if the courts
found that the Air Force termination for default was incorrect, the termination of
the contract would have become a termination for the Government’s convenience.

In addition, Assistant Secretary of the Air Force, Acquisition personnel stated that
it would not have been legally permissible to terminate the MYP contract for
default while canceling the Air Force procurement but accelerating the Marine
Corps procurement.

We believe that although the contract was sole source, the Air Force should not
have ruled out a contract termination for cause if the contractors’ performance
failed to meet contract requirements. In addition, contractor performance
assessment reports should have been accurate.

Management Comments. The Air Force acknowledged that the allegation was
partially accurate. The Air Force stated that they did not terminate the C-130J
contract for default because they were actively working with the contractor to
address shortfalls in meeting the commercial specification that was on contract.
Therefore, the Air force decided that the benefits of continuing the program with a
planned strategy to use a Blue Ribbon panel to mediate ambiguous contract
language and disposition outstanding deficiencies to fix the performance issues
were in the best interest of the Government.

Audit Response. The Air Force stated that termination is always an option, but
was not considered because of the performance challenges. The Air Force issued


                                     15
three consecutive contracts for the C-130J aircraft even though Lockheed Martin
had not delivered one aircraft that met the contract model specification. The
C-130J Program began in 1995, with the first C-130J non-compliant aircraft
delivered in 1999. The Government should require the contractor to deliver an
aircraft compliant with the contract model specification, yet ten years after the
first award, the Air Force was still accepting non-compliant aircraft. The
performance challenges in the contract were created by the Air Force actions on
acquisition strategy and contract formation. As a result, the Air Force limited its
options to forcefully enforce the contract because they chose an inappropriate
acquisition strategy and compounded the problem by using ambiguous and vague
contracting language.

Previous Report. The problems within the C-130J Program were the result of
the Air Force C-130J SPO contracting officer determining that the C-130J aircraft
was a commercial item and adopting a commercial acquisition strategy. Our
previous report, DoD IG Report No. D-2004-102, “Contracting for and the
Performance of the C-130J Aircraft,” July 23, 2004, addressed this issue. In
addition, during an April 13, 2005, meeting, the Chairman of the Senate
Subcommittee on AirLand, Committee on Armed Services, the Acting Secretary,
and Chief of Staff of the Air Force agreed that the aircraft procurement should be
converted from a commercial acquisition to a negotiated procurement under FAR
Part 15. The Air Force is in the process of making that conversion. An
undefinitized contract action was issued on February 10, 2006, to convert the
FY 2006 through FY 2008 portion of the C-130J MYP contract to a FAR Part 15
negotiated contract.




                                    16
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force for Acquisition
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Director, Air National Guard
Chief of Air Force Reserve
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relaions, Committee on Government Reform




                                        18
Office of the Assistant Secretary of the Air Force
(Acquisition) Comments




                        19
20
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Bruce A. Burton
Rudolf Noordhuizen
Lisa E. Novis
Kendall L. Alexis
Ryan D. Berkheimer
Loriann Rivera-Nieves
Jillisa H. Milner
